App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM F. HOLDNER,
DBA Holdner Farms,
Plaintiff-Appellant,
V.

No. 18-35605
D.C. No. 3:15-cv-02039-AC
MEMORANDUM*
(Filed Apr. 24, 2019)

KATY COBA, Director of
the Oregon Department of
Agriculture, in her individual
and official capacity;
DICK PEDERSON, Director
of the Oregon Department
of Environmental Quality,
in his individual and
his official capacity,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
John V. Acosta, Magistrate Judge, Presiding**
Submitted April 17, 2019***

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The parties consented to proceed before a magistrate
judge. See 28 U.S.C. § 636(c).
*** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
Before: McKEOWN, BYBEE, and OWENS, Circuit
Judges.
William F. Holdner, DBA Holdner Farms, appeals
pro se from the district court's judgment dismissing
without prejudice his 42 U.S.C. § 1983 action arising
from the alleged improper regulation of Holdner's former cattle ranch. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo a district court's compliance
with a mandate. United States v. Kellington, 217 F.3d
1084, 1092 (9th Cir. 2000). We affirm.
We previously remanded this case to the district
court for it to dismiss Holdner's action without prejudice. Holdner v. Coba, 693 F. App'x 613 (9th Cir. July 6,
2017). Under the rule of mandate, the district court
lacked authority to consider any other arguments
raised by Holdner. See Stacy v. Colvin, 825 F.3d 563,
568 (9th Cir. 2016). Holdner repeats these other arguments in this appeal, but our prior ruling constitutes
the law of the case. See id. at 567.
AFFIRMED.

App. 3
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION
WILLIAM F. HOLDNER
dba HOLDNER FARMS,
Plaintiff,

Case No. 3:15-cv-2039-AC
OPINION AND ORDER
(Filed Jul. 2, 2018)

v.
KATY COBA, in her individual
capacity; ALEXIS TAYLOR,
DIRECTOR OF OREGON
DEPARTMENT OF
AGRICULTURE, in her
official capacity; DICK
PEDERSON, in his individual
capacity; and RICHARD
WHITMAN, DIRECTOR
OF THE OREGON
DEPARTMENT OF
ENVIRONMENTAL QUALITY,
in his official capacity,
Defendants.'
ACOSTA, Magistrate Judge:

1 Alexis Taylor and Richard Whitman have been substituted
as successors for Katy Coba and Dick Pederson, respectively, under FED. R. Civ. P. 25(d), but only to the extent they were named
in their official capacities.

App. 4
Introduction
Plaintiff William Holdner ("Holdner"), appearing
pro se, filed a civil rights action against Katy Coba, Director of Oregon's Department of Agriculture, and Dick
Peterson, Director of Oregon's Department of Environmental Quality (collectively "Defendants"), challenging their authority to regulate livestock operations
on his land. The court granted Defendants' motion to
dismiss finding Holdner lacked standing; the claims
are barred by claim preclusion, issue preclusion; and
Eleventh Amendment immunity; and Defendants are
entitled to qualified immunity, and dismissed the complaint with prejudice. Holder appealed and the Ninth
Circuit affirmed the court's dismissal of the complaint
but remanded with directions to dismiss the action
without prejudice.
On March 27,2018, Holdner filed a First Amended
Complaint (the "Amended Complaint") in which he
asserts the same claims but incorporates additional
factual allegations. Defendants move to dismiss the
Amended Complaint asserting it does not remedy the
defects found in the original complaint. The court finds
the Amended Complaint fails to state a claim upon
which relief may be granted and Defendants are entitled, once again, to the dismissal of this action. Consequently, Defendants' motion to dismiss is granted.
Background
This is the third action initiated in this court by
Holdner asserting claims based on Oregon's enforcement

App. 5
of water quality standards against his livestock operation. In 2006, the Oregon Department of Agriculture
(the "Department") became concerned Hoidner was
discharging animal waste from his property in a manner likely to send it into a nearby creek. Hoidner v.
Coba, Civ. No. 09-979-AC, 2011 WL 2633165, at *3 (D.
Or. July 5, 2011) ("Hoidner I"). As a result, the Department issued a civil citation for pollution violations
against Holdner on three separate occasions — March
9, 2007, February 10, 2009, and June 15, 2009. Id. Additionally, in 2010, the Oregon Department of Justice
indicted Hoidner on three felony and twenty-five misdemeanor counts of water pollution. Id. at *3. Hoidner
requested administrative review of the civil citations,
arguing his ranch was exempt from state and federal
regulation, and moved to dismiss the criminal charges
on the ground the Department exceeded its authority
in enforcing the federal statute. Id. at *3; see also Holdner v. Kroger, No. 3:12.: cv-01159-PK, 2012 WL 6131637,
at *2 (D. Or. Nov. 6, 2012) ("Holdner II"). The administrative healing resulted in final orders in the agency's
favor and the court denied Holdner's motion in the
criminal proceedings, Holdner I, 2011 WL 2633165, at
*3; Holdner II, 2012 WL 6131637, at *3.
On August 20, 2009, Holdner filed an action
against the Department complaining about the issuance of the civil citations. Holdner I, 2011 WL 2633165,
at *1. Holdner again asserted the_Department exceeded
its authority under federal statues and sought to enjoin it from taking further enforcement actions against
him. Id. at *4. After directing Holdner to amend his

App. 6
complaint twice, the court determined Holdner was alleging a claim under 42 § 1983 ("Section 1983") for violation of his rights to procedural due process. Id. It
then granted summary judgment to the Department
on the Section 1983 claim, finding Holdner failed to allege a violation of a fundamental right or offer evidence
of the Department's involvement in the conduct comprising such violation.2 Id. at *7-*8.
Holdner filed a second action on June 28, 2012,
once again alleging various Oregon agencies lacked authority to regulate water quality and asserting a single
claim for declaratory relief under a slightly different
theory than alleged in Holdner I. Holdner II, 2012 WL
6131637, at *2. Specifically, Holdner alleged the United
States Environmental Protection Agency never granted
authority to the State of Oregon to administer the National Pollution Discharge Elimination System and,
absent such authority, Oregon's regulatory and permitting scheme governing animal feeding operations was
ultra vires. Id. at *3. Judge Papak denied the defendants' motion to dismiss on the grounds of mootness and
the Rooker-Feldman doctrine, but granted the motion
finding Holdner's claims barred by the Younger abstention doctrine and claim preclusion. Id. at *3-*7.
Judge Papak set forth the elements of the claim
preclusion doctrine — identity of claims, final judgment on the merits, and identity or privity between the
2 The court also granted summary judgment on Holdner's
claim for injunctive relief finding it barred by the Younger abstention doctrine. Id. at *6.

App. 7
parties — and described the doctrine as "[barring] litigation of any claims that were raised or could have
been raised in the prior action" where these_ elements
are present. Id. at *7. He then reasoned:
Looking for the moment only at Holdner's
prior state administrative and criminal proceedings, it is clear that Holdner could easily
have raised his current theory that the ODA
lacks authority to enforce the Clean Water Act
in either of those proceedings, but only now
attempts to pursue further litigation on that
"theory of relief." Similarly, Holdner could
have raised his ultra vires theory in the prior
federal case, in which he contended that the
ODA exceeded its regulatory authority for
other reasons. Moreover, there is no doubt
that Holdner's prior proceedings were litigated to final judgment on the merits. Finally,
the current defendants in this action are
surely in privity with the State of Oregon, a
party to Holdner's criminal proceeding, since
they are all departments or agents of the
state.
Holdner's single argument against the application of claim preclusion is that the legal theory central to his case — that Oregon's entire
water pollution control scheme is ultra vires —
was not previously litigated in any other proceeding. But Holdner misunderstands the nature of federal and Oregon claim preclusion
doctrines, both of which recognize preclusion
where a claim or theory could have been
raised in an earlier proceeding, but nevertheless was not. Consequently, even though

App. 8
Holdner has now discovered a new legal theory
explaining why he was not subject to the
Oregon NPDES permitting requirement for
CAFO's, he is precluded from advancing it
here because he could have raised it in any
number of earlier proceedings.
Id. at *7 (internal quotations omitted).
Holdner filed the instant action, the third in this
court, on October 29, 2015, once again complaining
about Defendants' regulation of the livestock operations on Holdner's property. (Compl. ECF No. 1.) The
court interpreted the complaint filed on October 29,
2015 (the "Complaint") to allege three claims: 1) deprivation of Holdner's constitutional due process rights
under Section 1983; 2) Defendants acted outside their
enforcement authority under the Clean Water Act; and
3) Holdner's land patent bars the state from regulating
water quality on his land. Holdner v. Coba, Civ. No.
3:15-cv-2039-AC, 2016 WL 3102053 (D. Or. June 1,
2016) ("Holdner III")3. However, the court later noted
"the allegations of the Complaint universally support
a single claim under Section 1983." Holdner, v. Coba,
Case No. 3:15-cv-2039-AC, 2016 WL 6662687, at *5 (D.
Or. Nov. 9, 2016).
The court granted Defendants' motion to dismiss on
several grounds. First, the court found Holdner lacked
standing based on the absence of a injury-in-fact.
3 Holdner's motion for reconsideration of this Opinion was
denied in Holdner v. Coba, Civ No. 3:15-cv-2039-AC, 2016 WL
4210776 (D. Or. Aug. 5, 2016).

App. 9
Holdner III, 2016 WL 3102053, at *3. The court reasoned
"[b]ecause plaintiff cannot legally possess livestock until December 8,.2019, he has no legally protected interest in livestock as required for standing to bring his
claims, and can show no 'actual or imminent' injury
sufficient to meet the standing requirement in federal
court." Id.
Next, the court found Holdner's claims barred by
claim preclusion. Id. The court found Holdner III to be
substantially similar to Holdner I and Holdner II, and
to allege "claims which were raised or should have
been raised in prior administrative and criminal proceedings."Holdner III, 2016 WL 3102053, at *3. It then
noted "Judge Papak clearly stated that plaintiff's
claims would be barred by claim preclusion" and "[a]s
plaintiff's prior proceedings were litigated to final
judgment on the merits and the defendants in this action are in privity with the State of Oregon, a party to
plaintiffs criminal proceeding, plaintiffs claims are
barred by claim preclusion." Id. Similarly, issue preclusion prevented Holdner from pursuing his claims "because issues raised in plaintiff's complaint were fully
litigated to a final judgment on the merits in plaintiffs
first federal court lawsuit, the criminal proceedings,
and the prior state court administrative proceedings.
Id. at *4. Additionally, the court found Holdner unable
prosecute a citizen suit under the Clean Water Act. Id.
at *5-*6. •
Assuming Holdner had stated a viable claim, the
court determined Defendants were protected by Eleventh Amendment immunity and qualified immunity.

App. 10
Id. at *5. Holdner sued Defendants in their official capacities and Oregon did not waive its Eleventh Amendment immunity. Consequently, Defendants were shielded
by such immunity. Id. Additionally, Holdner failed to
allege a viable claim for violation of his constitutional
rights, providing qualified immunity to Defendants. Id.
The court considered allowing Holdner leave to
amend the Complaint. However, it determined Holdner could not cure the defects in the Complaint in
amended pleading. Specifically, claim preclusion barred
Holdner from pursuing any claim that was, or should
have been, raised in his prior federal lawsuits or state
administrative and criminal proceedings. Id. at *6.
Moreover, Holdner could not bring a private action under Clean Water Act or sue Defendants in their official
capacity. Id. Finally, Defendants would be afforded
qualified immunity on any claims based on constitutional violations alleged in his prior actions. Consequently, the court dismissed Holdner's action with
prejudice.
Holdner appealed the opinion and the Ninth Circuit "affirm[ed] the district court's dismissal of Holdner's action but vacate[d] the judgment in part and
remand [ed] for the district court to dismiss Holdner's
action without prejudice." Holdner v. Coba, 693 Fed.
Appx. 613, 613 (2017). The court based its ruling on
Holdner's failure to challenge this court's grounds for
dismissing the complaint, resulting in the wavier of
any such challenge. Id. The Ninth Circuit did not provide any direction on whether Holdner could file an

App. 11
amended complaint in this case or what deficiencies
should be remedied in the new filing.
Holder filed the Amended Complaint asserting the
same claims with additional factual allegations. The
new allegations relate solely to his conviction for water
pollution in the state court under an allegedly unconstitutional statute. (Am. Compl., ECF No. 62, II 2229.) They describe testimony and evidence offered at
his criminal trial, and assert the penalty and fine issued against him violated his due process rights.
(Am. Compl. II 23-29.) Defendants move to dismiss
the Amend Complaint.
Legal Standard
A well-pleaded complaint requires only "a short
and plain statement of the claim showing that the
pleader is entitled to relief" FED. R. Civ. P. 8(a)(2)
(2018). A federal claimant is not required to detail all
factual allegations; however, the complaint must provide "more than labels and conclusions, and a formulaic recitation of the elements of a cause of action will
not do." Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007) (citations omitted). "Factual allegations must be
enough to raise a right to relief above the speculative
level." Id. While the court must assume that all facts
alleged in a complaint are true and view them in a
light most favorable to the nonmoving party, it need
not accept as true any legal conclusion set forth in the
complaint. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Additionally, a plaintiff must set forth a plausible

App. 12
claim for relief a possible claim for relief will not do.
"In sum, for a complaint to survive a motion to dismiss,
the non-conclusory 'factual content,' and reasonable
inferences from that content, must be plausibly suggestive of a claim entitling the plaintiff to relief "Moss
v. U.S. Secret Service, 572 F.3d 962, 969 (9th Cir. 2009)
(quoting Iqbal, 556 U.S. at 678); Sheppard v. David
Evans and Assoc., No. 11-35164, 2012 WL 3983909 at
*4 (9th Cir. Sept. 12, 2012) (quoting Iqbal, 556 U.S. at
679) ("The Supreme Court has emphasized that analyzing the sufficiency of a complaint's allegations is a
`context-specific task that requires the reviewing court
to draw on its judicial experience and common
sense.").
Discussion
The Amended Complaint asserts the same claims
as those asserted by Holdner in the Complaint. The
only difference in the Amended Complaint is the addition of allegations related to Holdner's state criminal
proceedings. All of these allegations, and any new
claims deriving therefrom, could have been asserted in
Holdner's prior legal proceedings and are barred by
claim preclusion. Holdner has failed to successfully
cure the deficiencies identified by this court, which
findings were affirmed by the Ninth Circuit. Consequently, the Amended Complaint fails to state a claim
upon which relief may be granted and Defendants are
entitled, once again, to the dismissal of this action.

App. 13
At oral argument, Holdner expressed, for the first
time, his intent to rely on Rule 60 of the Federal Rules
of Civil Procedure ("Rule 60") to set aside Oregon's enforcement of water quality standards against Holdner
and his livestock operation. Rule 60 allows the court to
"relieve a party or its legal representative from a final
judgment, order, or proceeding" for various reasons.
FED. R. Civ. P. 60(b) (2018). However, a motion for relief
under Rule 60 must be brought in the court which rendered the original judgment. Veltze v. Bucyrus-Eire Co.,
154 F.R.D. 214, 216 (E.D. Wis. 1994). Rule 60 does not
authorize this court to relieve Holdner from a judgment issued by the Oregon courts.
The failure of the Ninth Circuit to instruct Holdner, or the court, on the purpose of dismissing this action without prejudice is problematic. As Defendants
surmise, it is possible the Ninth Circuit intended to allow Holdner to refile his action after the prohibition on
his ability to legally possess livestock expired, thereby
eliminating the obstacle to establishing standing. Additionally, the Ninth Circuit could have opened the
door to Holdner reasserting his claim in a court of competent jurisdiction to resolve the Eleventh Amendment
immunity issue. While such filings would remain subject to the prior conclusion by this court and the Ninth
Circuit that any claim based on Defendants' regulation of Holdner's livestock operation and resulting administrative proceedings and criminal prosecution are
barred by claim preclusion, the court must follow the
direction of the Ninth Circuit and dismiss this action
without prejudice. However, Holdner may not refile

App. 14
this action in this court prior to the expiration of the
prohibition on his ability to legally possess livestock on
December 8, 2019, and may not assert claims related
to Defendants' previous regulation of Holdner's livestock operation, and resulting administrative proceedings and criminal prosecution.
Conclusion
Defendants' motion (ECF No. 63) to dismiss is
GRANTED and this action is dismissed without prejudice.
DATED this 2nd day of July, 2018.
/s/ John V. Acosta
JOHN V. ACOSTA
United States
Magistrate Judge

App. 15
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION
WILLIAM F. HOLDNER
dba HOLDNER FARMS,
Plaintiff,

Case No. 3:15-cv-2039-AC
JUDGMENT
(Filed Jul. 2, 2018)

v.
KATY COBA, in her individual
capacity; ALEXIS TAYLOR,
DIRECTOR OF OREGON
DEPARTMENT OF
AGRICULTURE, in her
official capacity; DICK
PEDERSON, in his individual
capacity; and RICHARD
WHITMAN, DIRECTOR
OF THE OREGON
DEPARTMENT OF
ENVIRONMENTAL QUALITY,
in his official capacity,
Defendants.'
ACOSTA, Magistrate Judge:
Based on the Opinion and Order entered July 2,
2018,
1 Alexis Taylor and Richard Whitman have been substituted
as successors for Katy Coba and. Dick Pederson, respectively, under FED. R. Civ. P. 25(d), but only to the extent they were named
in their official capacities.

App. 16
IT IS HEREBY ORDERED and ADJUDGED that
this action is DISMISSED without prejudice.
DATED this 2nd day of July, 2018.
/s/ John V. Acosta
JOHN V. ACOSTA
United States
Magistrate Judge

App. 17
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM F. HOLDNER,

No. 16-35723

Plaintiff - Appellant, D.C. No. 3:15-cv-02039-AC
U.S. District Court for
v.
Oregon, Portland
KATY COBA, Director of
MANDATE
the Oregon Department of
Agriculture, in her individual (Filed Jan. 22,.2018)
and official capacityi and
DICK PEDERSON, Director
of the Oregon Department
of Envionmental Quality,
in his individual and
his official capacity,
Defendants - Appellees.
The judgment of this Court, entered July 06, 2017,
takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Craig Westbrooke
Deputy Clerk
Ninth Circuit Rule 27-7

App. 18
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
WILLIAM F. HOLDNER,
DBA Holdner Farms,
Plaintiff-Appellant,
V.

No. 18-35605
D.C. No. 3:15-cv-02039-AC
MEMORANDUM*
(Filed Jul. 6, 2017)

KATY COBA, Director of
the Oregon Department of
Agriculture, in her individual
and official capacity;
DICK PEDERSON, Director
of the Oregon Department
of Environmental Quality,
in his individual and
his official capacity,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
John V. Acosta, Magistrate Judge, Presiding**
Submitted June 26, 2017***

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The parties consented to proceed before a magistrate judge.
See 28 U.S.C. § 636(c).
*** The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 19
Before: PAEZ, BEA, and MURGUIA, Circuit Judges.
William F. Holdner appeals pro se from the district
court's judgment dismissing his 42 U.S.C. § 1983 action
arising from the alleged improper regulation of Holdner's former cattle ranch. We have jurisdiction under
28 U.S.C. § 1291. We affirm in part, vacate in part, and
remand.
In his opening brief, Holdner failed to challenge
the district court's grounds for dismissal of his complaint, and therefore Holdner waived any such challenge. See Indep. Towers of Wash. v. Washington, 350
F.3d 925, 929 (9th Cir. 2003) ("[W]e will not consider
any claims that were not actually argued in appellant's
opening brief."). We affirm the district court's dismissal
of Holdner's action but vacate the judgment in part
and remand for the district court to dismiss Holdner's
action without prejudice.
The magistrate judge properly denied Holdner's
motion requesting review by a district court judge because the parties consented to a magistrate judge. See
28 U.S.C. § 636(c)(3) (when parties provide consent to
magistrate jurisdiction, aggrieved party may appeal
directly to court of appeals).
We reject as without merit Holdner's contentions
that his action qualifies as a citizen suit under 33
U.S.C. § 1365(a), and that the district court erred in
denying discovery, the right to introduce additional evidence, and a requested hearing.

App. 20
Appellees' motion to take judicial notice (Docket
Entry No. 11) is denied as unnecessary.
AFFIRMED in part, VACATED in part, and
REMANDED.

App. 21
UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION
WILLIAM F. HOLDNER,
D.B.A. HOLDNER FARMS
Plaintiff,

Civ. No. 3:15-cv-2039-AC
OPINION AND ORDER
(Filed Jun. 1, 2016)

V.
KATY COBA, DIRECTOR
OF OREGON DEPT. OF
AGRICULTURE, IN HER
INDIVIDUAL AND OFFICIAL
CAPACITY; DICK PEDERSON,
DIRECTOR OF THE OREGON
DEPT. OF ENVIRONMENTAL
QUALITY, IN HIS INDIVIDUAL
AND OFFICIAL CAPACITY,
Defendants.
ACOSTA, Magistrate Judge:
Plaintiff William Holdner ("plaintiff") brings this
civil rights and declaratory judgment lawsuit arising
from the Oregon Department of Agriculture's regulation of plaintiff's cattle ranch and plaintiff's subsequent criminal prosecution for violation of state water
pollution statues, Defendants Katy Coba and Dick
Pederson ("defendants") move to dismiss plaintiff's
lawsuit for lack of standing and for failure to state a
claim (ECF No. 12). For the reasons discussed below,

App. 22
defendants' motion is GRANTED and the complaint
(ECF no. 1) is DISMISSED with prejudice.'
Background
Since 2007, State of Oregon authorities ("state authorities") have attempted to prevent plaintiff from
discharging animal wastes from his cattle ranching operation into state waters, and to bring his beef facility
operation under a state Confined Animal Feeding
Operation ("CAFO") permit, as required by state law.
These efforts culminated in civil administrate proceedings, a criminal prosecution, and two civil suits plaintiff filed in this court in an attempt to enjoin the State
authorities from bringing enforcement actions against
him. In every forum, the issues were adjudicated in favor of the state authorities.
I.

Civil Suits

On August 20, 2009, plaintiff filed a civil action in
the U.S. District Court, District of Oregon against the
Oregon Department of Agriculture ("ODA"), entitled
Holdner v. Oregon Department of Agriculture, Case No.
3:09-979-AC, challenging ODA's regulatory authority
and the evidence supporting its administrative enforcement actions against him. 2009 WL 5149264 (D.
Or. Dec. 23, 2009). The court granted summary judgment in favor of the ODA, stating that plaintiff "failed
1 Defendants requested oral argument on their motion. The
court finds this motion appropriate for disposition without oral
argument, pursuant to Local Rule 7-1(d)(1).

App. 23
to provide any evidence, or even to allege specific factual allegations, in support of his claim," and that he
relied "exclusively on the allegation in his complaint
and unsupported conclusory statements." Id. at *14.
Plaintiff filed a second civil action in this district
on June 28, 2012, again alleging that the state authorities lacked authority to regulate water quality and asserting constitutional claims. Holdner v. John Kroger,
et al, Case No. 3:12-cv-1159-PK, 2012 WL 6131637 (D.
Or. Nov. 6, 2012). Plaintiff alleged that the state's water quality program was ultra vires and that the State
generally, and ODA in particular, lacked authority to
administer the NPDES program or to enforce any state
law governing water quality. Id. at *14-*15. He alleged
violations of his constitutional rights, including substantive due process. The court dismissed this action,
stating that plaintiff's claims were barred by claim
preclusion and the Younger abstention doctrine, and
noting that plaintiff could have raised his ultra vires
claim in any of his prior proceedings. Id. at *12-*14.
The second civil action was thus dismissed on December 10, 2012. The Ninth Circuit affirmed the district
court's decision on April 15, 2015, and the Supreme
Court denied certiorari on October 5, 2015.
II. State Criminal Proceedings
On May 19, 2010, plaintiff was indicted On three
felony and twenty-five misdemeanor counts of water
pollution under state law. Plaintiff filed a motion to dismiss, arguing that the state lacks authority to regulate

App. 24
his livestock operations, and that the criminal enforcement action violated his constitutional rights. He also
alleged that his land patent barred any criminal enforcement action, and that ODA did not have authority
to administer the NPDES program. Plaintiff's motion
was denied on July 19, 2011. Plaintiffs motions for reconsideration, as well as his "Motion to Renew Dismissal of Animal Pollution Charges," also were denied.
On February 24, 2012, plaintiff was found guilty
on 27 counts of water pollution. Judgment was entered
May 21, 2012. Plaintiff's motion for arrested judgment
and new trial motion were denied on June 22, 2012,
and his conviction was upheld on appeal without opinion by the Oregon Court of Appeals on February 5,
2014. State of Oregon v. Holdner, CA No. A151760 (Feb.
5, 2014). The Oregon Supreme Court denied review on
June 12, 2014. State of Oregon v. William Frederick
Holdner, 355 Or. 668, 330 P.3d 27 (Table).
On October 3, 2014, plaintiff was convicted of 95
counts of animal neglect. State of Oregon v. William F.
Holdner, Columbia County Circuit Court Case No. 126240. Plaintiff's probationary conditions bar him from
possessing livestock for a period of five years, until December 8, 2019. Plaintiff's appeal of this conviction is
pending as of the date of this Opinion.
III. Plaintiff's Complaint
Plaintiff filed this lawsuit on October 29, 2015, alleging violations under 42 U.S.C. § 1983 and requesting
a declaratory judgment. Plaintiff's complaint disputes

App. 25
the state's authority to regulate livestock operations
on his land. Plaintiff's complaint appears to allege
three claims: (1) a § 1983 claim for deprivation of constitutional due process rights; (2) a claim that the Department of Environmental Quality ("DEQ") and ODA
acted outside their enforcement authority; and (3) a
claim that plaintiff's land patent bars the state from
regulating water quality on plaintiff's land.
Defendants now move to dismiss plaintiff's complaint under Federal Rule of Civil Procedure 12(b)(1)
and 12(b)(6). They argue that plaintiff lacks standing
to bring this action, that claim preclusion and issue
preclusion bar his lawsuit, that Eleventh Amendment
immunity bars his § 1983 claim, that defendants are
entitled to qualified immunity, that he may not bring a
private action under the Clean Water Act ("CWA"), and
that he fails to state a claim on which relief can be
granted.
Legal Standards
I.

The Court's Review of Pro Se Filings

A court must liberally construe the filings of a pro
se plaintiff and afford the plaintiff the benefit of any
reasonable doubt. Hebbe v. Pliler, 627 F.3d 338, 342
(9th Cir. 2010). When dismissing the complaint of a pro
se litigant, the litigant "must be given leave to amend
his or her complaint unless it is 'absolutely clear that
the deficiencies of the complaint could not be cured
by amendment." Karim-Panahi v. Los Angeles Police
Dep't, 839 F.2d 621, 623 (9th Cir. 1988) (quoting Noll v.

App. 26
Carlson, 809 F.2d 1446, 1448 (9th Cir. 1987), superseded on other grounds by statute as stated in Lopez v.
Smith, 203 F.3d 1122 (9th Cir. 2000) (en banc).
II. Motion to Dismiss
A motion to dismiss under Rule 12(b)(1) tests the
subject matter jurisdiction of the court. See, e.g., Savage v. Glendale Union High Sch., 343 F.3d 1036, 103940 (9th Cir. 2003). Under Article III of the Constitution,
federal judicial power extends only to "Cases" and
"Controversies." U.S. CONST., art. III, § 2, cl. 1. Article
III standing thus is a threshold requirement for federal court jurisdiction. Lujan v. Defenders of Wildlife,
504 U.S. 555, 559-60 (1992). At a constitutional minimum, standing requires the party invoking federal jurisdiction to establish three elements: (1) injury in the
form of an invasion of a legally protected interest
which is (a) concrete and particularized and (b) actual
or imminent, not conjectural or hypothetical; (2) a
causal connection between the injury and the defendant's conduct; and (3) the likelihood, not mere speculation, that a favorable decision will redress the injury.
Id. at 560-61.
Discussion
I.

Standing

Because it is a threshold requirement for establishing federal court jurisdiction, the court first addresses defendants' standing argument. Lujan, 504
U.S. at 559-60. The three elements of standing are

App. 27
(1) injury-in-fact; (2) causation; and (3) redressability.
Id. at 560. It is the burden of the party invoking federal
jurisdiction to establish that he has standing. Id. at
561. To provide standing, an alleged injury must be a
"concrete and particularized" invasion of a "legally protected interest." Id. at 560. The injury must be "actual
or imminent, not 'conjectural' or 'hypothetical." Id.
Defendants argue that plaintiff lacks standing to
bring these claims because he has not alleged an injury-in-fact sufficient to meet the standard set forth by
in Lujan. Here, because of probationary conditions
imposed after his criminal convictions, plaintiff is prohibited from possessing livestock, ECF No. 12, Ex. 23,
pp. 2; see also State of Oregon v. William F. Holdner,
Columbia County Circuit Court Case No. 12-6240. Indeed, plaintiff does not allege that he possesses a cattle
operation. See ECF No. 1. Because plaintiff cannot legally possess livestock until December 8, 2019, he has
no legally protected interest in livestock as required for
standing to bring his claims, and can show no "actual
or imminent" injury sufficient to meet the standing requirement in federal court.
Plaintiff's pending appeal of his state court criminal conviction for 95 counts of animal neglect2 does not
affect the court's standing analysis because plaintiff
has failed to show that a reversal on all 95 counts is
sufficiently plausible to meet the "actual or imminent"
2 To the extent that plaintiff asks the court to review his
state court criminal conviction, his request is denied because the
court lacks jurisdiction to review a state court criminal conviction
unless by habeas petition.

App. 28
standard set forth in Lujan. 504 U.S. at 560. Further,
while plaintiff contends that he plans to lease his property to his son to raise cattle, plaintiff does not allege
sufficient facts that would establish standing to bring
claims on behalf of his son. In sum, plaintiff has not
met his burden to show standing, and therefore fails to
establish federal court jurisdiction.
II.

Claim Preclusion

Equally dispositive of plaintiff's claims is that
claim preclusion bars his lawsuit, which is substantially similar to the two lawsuits plaintiff previously
filed in this court and involves claims which were
raised or should have been raised in prior administrative and criminal proceedings. In Oregon, "[t'he doctrine of claim preclusion . . . generally prohibits a party
from relitigating the same claim or splitting a claim
into multiple actions against the same opponent."
Bloomfield v. Weakland, 339 Or. 504, 510 (2005) (en
banc). The claim-splitting rule "forecloses a party that
has litigated a claim against another from further litigation on that same claim on any ground or theory of
relief that the party could have litigated in the first instance." Id. at 511. Moreover, the Ninth Circuit's claim
preclusion doctrine bars litigation of any claims that
were raised or could have been raised in the prior
action, and applies when there is: "(1) an identity of
claims, (2) a final judgment on the merits, and (3) identity or privity between parties." Owens v. Kaiser Found.
Health Plan, Inc., 244 F.3d 708, 713 (9th Cir. 2001).

App. 29
Plaintiff misquotes Judge Papak's 2012 Recommendation as stating that "claim preclusion does not
bar Plaintiffs claim."' On the contrary, Judge Papak
clearly stated that plaintiff's claims would be barred
by claim preclusion. In Holdner v. Kroger, et al, Case
No. 3:12-cv-01159-PK, 2012 WL 6131637 (D. Or. Nov, 6,
2012), plaintiff's second civil action filed in this court,
Judge Papak stated that claim preclusion barred plaintiff's claims that the ODA exceeded its regulatory authority and lacked authority to enforce the CWA
because he could have raised these claims "in any
number of earlier proceedings."4 Id. at *7. The claims
raised in this case are substantially similar to the
claims plaintiff alleged in Holdner v. Kroger. As plaintiff's prior proceedings were litigated to final judgment
on the merits and the defendants in this action are in
privity with the State of Oregon, a party to plaintiff's
criminal proceeding, plaintiff's claims are barred by
claim preclusion. Owens, 244 F.3d at 713.
Plaintiff also contends his claims are not precluded, citing Doug Decker v. Northwest Environmental Defense Centers, 133 S.Ct. 1326 (2013). Plaintiff
misreads Decker. In that case, respondents invoked
federal jurisdiction under 33 U.S.C. 1356(a), which authorizes private enforcement of the provisions of the
Plaintiff elsewhere acknowledges that the claims alleged in
his complaint have been "raised" in previous court proceedings.
Compl. 91 4.
4 As noted, Judge Simon adopted Judge Papak's recommendation and dismissed plaintiffs case on December 10, 2012; the
Ninth Circuit affirmed the decision, and the Supreme Court denied certiorari on October 5, 2015.

App. 30
CWA and its implementing regulations. Id. at 1334. Petitioners argued that the NEDC's suit was barred by
Section 1369(b), which provides for "judicial review in
the United States courts of appeals of various particular actions by the [EPA] Administrator, including
establishment of effluent standards and issuance of
permits for discharge of pollutants." Id.
The Court agreed with respondents and held that
Section 1369(b) did not bar respondents' suit, which
originated as a citizen suit brought under Section
1365. That Section, the Court held, allows citizen suits
against alleged violators of the CWA that seek to enforce an obligation imposed by the CWA or its regulations. Decker, 113 S.Ct. at 1334. Here, plaintiff's
complaint is not brought to enforce any provision of the
CWA, and defendants do not allege his complaint is
barred under Section 1369(b).5
Because the claims raised in plaintiff's complaint
are substantially similar to those contained in plaintiffs prior civil suits, the court finds that plaintiff's
claims are barred by claim preclusion.

III. Issue Preclusion
Issue preclusion also bars plaintiff's claims because the issues raised in plaintiff's complaint were
Plaintiff also argues that the Decker holding entails that
"claim preclusion . . . [E]leventh [A]mendment and qualified immunity issues do not bar [his] claims. The court also rejects this
contention as it appears to be based on a misreading of Decker.
5

App. 31
fully litigated to a final judgment on the merits in
plaintiff's first federal court lawsuit, the state criminal
proceedings, and the prior state administrative proceedings. "If one tribunal has decided an issue, the decision on that issue may preclude relitigation of the
issue in another proceeding if five requirements are
met." Nelson v. Emerald People's Util. District, 318 Or.
99 104 (1993), First, the issue in the proceedings must
be "identical." Id. at 104. Here, plaintiff may not relitigate whether the State of Oregon has the authority to
regulate plaintiff's operations; plaintiff raised this issue as a defense in prior administrative and criminal
proceedings, Plaintiff also raised the issue of his land
patent and his ultra vires claim that the ODA lacks
authority to enforce the CWA in prior proceedings. The
first requirement is therefore met.
Second, the issue must have been "actually litigated" and "essential to a final decision on the merits
in the prior proceeding" Nelson, 318 Or. at 104. This
requirement is met because the state criminal and administrative proceedings resulted in judgments for the
state. Thus, there has been a previous finding that the
state and its agents did not act outside their federal
and statutory authority or in violation of an alleged exemption created by plaintiff's land patent.
Third, the party to be precluded must have "had
a full and fair opportunity to be heard" on the issue.
Nelson, 318 Or. at 104. Plaintiff had a full and fair
opportunity to be heard on these issues in his four
prior proceedings. In the prior proceedings, plaintiff
presented extensive evidence and filed motions in an

App. 32
attempt to prove that the state and its agents acted
outside their federal statutory authority. Plaintiff thus
had ample opportunity to be heard on the issues raised
in his complaint, and this requirement is met.
Fourth, the party to be precluded must have been
a party to or "in privity with" a party to the prior proceeding. Id. Plaintiff is the party against whom preclusion is sought, and he was a party in each of the prior
civil lawsuits, and the administrative proceeding, and
the defendant in the criminal proceeding. This requirement is also met.
Finally, the prior proceeding must have been "the
type of proceeding to which [the] court will give preclusive effect." Id. The rules of preclusion apply "where
both actions are criminal, where the prior action is
criminal and the later action is civil, and where the
prior adjudication is administrative in nature." Shuler
v. Distribution Trucking Co., 164 Or. App, 615, 624
(1999). The prior proceedings meet these requirements. Because this requirement is also met, plaintiff
is prohibited by issue preclusion from relitigating the
issues raised in this lawsuit.
IV. Eleventh Amendment Immunity and Qualified
Immunity
Plaintiff's claims are also barred by Eleventh
Amendment immunity and qualified immunity. The
Eleventh Amendment bars a citizen from bringing suit
in federal court against the citizen's own state regardless of the relief sought. Pennhurst State Sch. & Hosp.

App. 33
v. Halderman, 465 U.S. 89, 100 (1984). A state agency
is immune from suit under the Eleventh Amendment
because the State is the real party in interest. Durning
v. Citibank, NA., 950 F.2d 1419, 1423 (9th Cir. 1991);
similarly, state officials acting in their official capacity
are immune from suit. Will v. Michigan Dep't of State
Police, 491 U.S. 58, 71 (1989). Because plaintiff has
sued both agency directors in their official capacities,
and the state has not waived immunity, defendants are
shielded by the state's Eleventh Amendment immunity.
To the extent that plaintiff's complaint can be interpreted as asserting a claim under 42 § 1983, defendants are entitled to qualified immunity from such a
claim. To avoid qualified immunity, plaintiff's complaint must (1) state a claim for civil rights violations;
and (2) establish that the constitutional right violated
was so clearly established that it would have been
clear to a reasonable person that the conduct he complains of was unlawful. Ashcroft v. Iqbal, 556 U.S. 662,
676 (2009) (plaintiff must plead a violation of his constitutional rights); Sweaney v. Ada County, Idaho, 119
F.3d 1385 (9th Cir. 1997) (plaintiff initially bears the
burden of showing the violation of a clearly established
federal right).
As discussed in Sections V and VI below, the court
has examined plaintiff's entire complaint and finds
that he has failed to state a claim for relief under
§ 1983 for a violation of his constitutional rights, or under any other provision of federal law. Therefore, qualified immunity also bars his suit.

App. 34
V.

CWA Claims

Plaintiff's complaint appears to allege (1) that
the state lakes the authority to enforce the CWA, and
(2) a claim or "citizen suit" brought under the CWA.
Plaintiffs allegations fail to state a claim for relief
First, as set forth in the Federal Register, the EPA has
affirmatively determined that Oregon meets the criteria under the CWA to administer the NPDES permit
program in lieu of the EPA. "The contents of the Federal Register shall be judicially noticed." 44 U.S.C.
§ 1507. Thus, while plaintiff alleges that the state
lacks authority to implement the CWA permit program, the court need not accept as true allegations that
contradict matters properly subject to judicial notice in
a motion to dismiss. Sprewell v. Golden State Warriors,
266 F.3d 979, 988, opinion amended on denial of rehearing, 275 F.3d 1187 (9th Cir. 2001).
Second, the private action provision in the CWA
does not contemplate a lawsuit against a state regarding either its authority to enforce its own environmental protection laws or to manage its NPDES permitting
program. 33 U.S.C. § 1365. Plaintiffs claim that this action is a citizen suit under the CWA therefore lacks
merit. Furthermore, plaintiff does not seek to enforce
effluent standards; rather, he seeks to nullify Oregon's
ability to enforce water quality standard. Insofar as
plaintiff challenges the state's decision to issue, or refuse to issue, a water quality permit as not compliant
with the CWA, such challenge fails to state a claim because the CWA does not provide a federal cause of action to challenge a state agency's issuance of a NPDFS

App. 35
permit.6 District of Columbia v. Schramm, 631 F.2d
854, 863 (D.C. Cir. 1980). For these reasons, plaintiff
has not stated a claim for relief under the CWA.
VI.

Failure to Allege Facts

The court also finds that plaintiff fails to meet the
standard for adequate pleadings set forth in Fed. R.
Civ. P. 12(b)(6), As articulated in Bell Atlantic Corp. v.
Twombly, recitation of mere labels, conclusions, and elements is insufficient to state a claim for relief. 550
U.S. 544, 555 (2007). Here, plaintiff's complaint fails to
allege any actions taken by either of the named defendants. Plaintiff does not allege that he applied for a water quality permit, that a permit was denied, or that he
currently holds a permit. He does not allege that he
owns any cattle or livestock, or that he currently operates a CAFO. He alleges no financial loss imposed by
the State's permitting process, nor any injury caused
by any state actor or resulting from a state decision.
He does not allege or describe any injury caused by the
relationship between the EPA, the DEQ, or the ODA.
In sum, the complaint before the court is a series of
legal conclusions lacking any allegations which connect either defendant to any specific violation of law.
6 Nor does plaintiff have an implied cause of action under the
CWA; the Supreme Court has held that the CWA's "unusually
elaborate enforcement provisions" contain no implied cause of action for private citizens. Middlesex County Sewerage Authority v.
National Sea Clammers Ass'n, 453 U.S. 1, 13-15, 17-18 (1981).
Further, the remedies provided by Congress in the CWA foreclose
a private remedy under § 1983. Id. at 19-21.

App. 36
Accordingly, plaintiff fails to meet the requirements of
Fed. R. Civ. P. 12(b)(6).
VII. Leave to Amend
If the court, dismisses a complaint, it must decide
whether to grant leave to amend. See 28 U.S.C. § 1653.
The Ninth Circuit has repeatedly held that dismissal
without leave to amend is improper, even if no request
to amend the pleading was made, unless it is clear that
the defective pleading cannot possibly be cured by the
allegation of additional facts. Snell v. Cleveland, Inc.,
316 F.3d 822, 828 n. 6 (9th Cir. 2002) (citing Lee v. City
of Los Angeles, 250 F.3d 668, 692 (9th Cir. 2001)); Lopez
v. Smith, 203 F.3d 1122, 1130-31 (9th Cir. 2000). Here,
plaintiff's complaint is substantially similar to the two
civil complaints he previously filed in this court, and it
contains claims that were or should have been raised
in prior administrative and criminal proceedings in
state court. See Holdner v. ODA, U.S. District Court
Case No. 3:09-979-AC; Holdner v. John Kroger, et al,
U.S. Dist. Court Case No. 3:12-cv-1159-PK. Further, his
claims are barred by Eleventh Amendment immunity
and qualified immunity, fail to comply with Fed. R. Civ.
P. 12(b)(6), and fail to state a claim under the CWA. It
is clear that plaintiffs' claims cannot be cured by the
allegation of additional facts. The court thus finds
plaintiff should not be granted leave to amend and the
complaint is dismissed with prejudice.

App. 37
Conclusion
After careful consideration of plaintiff's complaint
in light of the Rule 12(b) standard, defendants' motions
to dismiss (#12) is GRANTED and the complaint (#1)
DISMISSED with prejudice.
IT IS SO ORDERED.
DATED this 1st day of June, 2016.
/s/

John V. Acosta
JOHN ACOSTA
United States
Magistrate Judge

